App. 1
APPENDIX A
DO NOT PUBLISH
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13470
Non-Argument Calendar
D.C. Docket No. 8:19-cv-00534-JSM-SPF
HUONG L. TRAN,
RICHARD W. HAZEN,
Plaintiffs-Appellants,
versus
CITY OF HOLMES BEACH,
a Municipal Corporation of the
State of Florida,
FLORIDA DEPARTMENT OF
ENVIRONMENTAL PROTECTION,
Defendants-Appellees,
CARMEL MONTI,
former City Mayor, et al.,
Defendants.
Appeal from the United States District Court
for the Middle District of Florida
(July 17, 2020)

App. 2
Before WILSON, BRANCH, and ED CARNES, Circuit
Judges.
PER CURIAM.
Plaintiffs Huong Tran and Richard Hazen (who re­
fer to themselves collectively as the Hazens) challenge
the district court’s dismissal with prejudice of their pro
se civil rights lawsuit against the City of Holmes
Beach, the Florida Department of Environmental Pro­
tection, and a number of other defendants connected to
the City and the Department, and maybe against some
other people as well, but that is not clear. The district
court found that the Hazens’ third amended complaint,
like the versions of the complaint that preceded it, was
an impermissible shotgun pleading. We agree and af­
firm.
I.
This case is the latest round in a nearly decadelong legal fight in state administrative proceedings,
state court proceedings, and in federal court over a
treehouse the Hazens built without a permit on their
beachfront property.1 The Hazens filed their pro se
complaint in federal district court in March 2019 and
amended it as a matter of course two weeks later. The
1 The dispute has been litigated before the City’s Code En­
forcement Board, the Florida Twelfth Circuit Court, the Florida
Second District Court of Appeals, the United States District Court
for the Middle District of Florida, and now this Court. At one point
the Hazens sought review of a Florida court decision in the United
States Supreme Court.

App. 3
City filed a motion for a more definite statement under
Federal Rule of Civil Procedure 12(e). Instead of grant­
ing that motion, the court dismissed without prejudice
the Hazens’ first amended complaint on its own mo­
tion.2 In its dismissal order, the court stated that the
Hazens’ filing was a “quintessential shotgun pleading”
because it incorporated into each count all of the pre­
ceding allegations and did not specify which defen­
dants committed which alleged acts or omissions. The
court’s order allowed the Hazens to file a new com­
plaint within 14 days.
The Hazens, still pro se, filed a second amended
complaint within the allotted time. The City and the
Department filed separate motions for a more definite
statement or, in the alternative, for dismissal under
Federal Rule of Civil Procedure 12(b)(6). The court
granted those motions and dismissed the second
amended complaint without prejudice. In its dismissal
order the court explained that the second amended
complaint was still a shotgun pleading and was even
more confusing than the first amended complaint had
2 The court said that it was dismissing the complaint under
Federal Rule of Civil Procedure 12(b)(6) on the City’s motion, but
the City had not actually moved to dismiss the amended com­
plaint or relied on Rule 12(b)(6). The appropriate remedy upon
granting a Rule 12(e) motion for a more definite statement is to
order the plaintiff to refile his complaint; the court may strike the
plaintiff’s existing complaint only if he fails to comply with that
order within 14 days. See Fed. R. Civ. P. 12(e). Here the court did
not order the Hazens to file another complaint but instead al­
lowed them to do so. And it did not wait 14 days before striking
the amended complaint but instead dismissed it without preju­
dice immediately.

App. 4
been because the second amended complaint contained
many more causes of action and alleged facts than the
earlier one had. The court pointed out that the second
amended complaint still referred to the defendants
largely in the collective and was unclear about which
constitutional provisions provided the basis for the 42
U.S.C. § 1983 claims. The court advised the Hazens
that they could file a third amended complaint but
warned them it would be their last chance to amend,
and the court “strongly encourage [d] [the Hazens] to
seek legal advice on these matters as it is not the
Court’s responsibility to further educate [them] on the
Federal Rules of Civil Procedure.”
The Hazens, still proceeding pro se, filed the third
amended complaint that is the subject of this appeal.
The City and the Department both filed motions to
dismiss under Rule 12(b)(6), and the district court
granted both motions after the Hazens responded to
the City’s motion but before they had a chance to re­
spond to the Department’s motion. This time the dis­
missal was with prejudice. The court found that the
third amended complaint was still a shotgun pleading
and expressed the opinion that the lawsuit was also
subject to dismissal on claim preclusion grounds. The
Hazens moved for reconsideration because the court
had not considered their arguments in response to the
Department’s motion, only the City’s motion. The court
granted the motion for reconsideration to the extent
the Hazens asked the court to consider their argu­
ments, but it denied the motion to the extent the

App. 5
Hazens asked it to change its mind about dismissing
the case.
The Hazens have appealed the district court’s dis­
missal order and its order on their motion for reconsid­
eration.
II.
“A district court has the inherent authority to con­
trol its docket and ensure the prompt resolution of law­
suits, which includes the ability to dismiss a complaint
on shotgun pleading grounds.” Vibe Micro. Inc, v.
Shabanets. 878 F.3d 1291, 1295 (11th Cir. 2018) (quo­
tation marks omitted). Shotgun pleadings violate Fed­
eral Rule of Civil Procedure 8, which requires a “short
and plain statement of the claim showing that the
pleader is entitled to relief,” by failing to give the de­
fendants notice of the claims against them and the
grounds on which those claims rest. Id. (quotation
marks omitted). And they sometimes violate Federal
Rule of Civil Procedure 10(b), which requires the
pleader to state “each claim founded on a separate
transaction or occurrence ... in a separate count or
defense” if doing so “would promote clarity.” Weiland v.
Palm Beach Ctv. Sheriff’s Office. 792 F.3d 1313, 1320
(11th Cir. 2015) (quotation marks omitted). We review
the dismissal of a shotgun pleading only for abuse of
discretion. Vibe Micro. 878 F.3d at 1294.
We have recognized four types of shotgun plead­
ings: (1) a complaint containing multiple counts where
each count adopts all allegations of all preceding

App. 6
counts; (2) a complaint that is full of conclusory, vague,
and immaterial facts not obviously connected to any
particular cause of action; (3) a complaint that does not
separate each cause of action or claim for relief into
different counts; and (4) a complaint that asserts mul­
tiple claims against multiple defendants without spec­
ifying which of the defendants is responsible for which
acts or omissions, or which of the defendants the claim
is brought against. Weiland. 792 F.3d at 1321-23.
Those categories do not have precise and clearly
marked boundaries - we said in Weiland that they are
“rough” and “cannot be too finely drawn.” Id. at 1321.
But “ [t]he unifying characteristic of all types of shot­
gun pleadings is that they fail to one degree or another,
and in one way or another, to give the defendants ade­
quate notice of the claims against them and the
grounds upon which each claim rests.” Id- at 1323.
The third amended complaint falls into the last
Weiland category because it fails to provide notice of
what claims each defendant must defend against. In
the “parties” section the Hazens list as defendants the
City; “City Building Officials of the City of Holmes
Beach, to include Mr. Thomas O’Brien and Mr. James
McGuiness, in their official capacity”; “[o]ther un­
named City Officials, in their official or individual
capacity”; the Department; James Martinello, “Envi­
ronmental Manager, Bureau of Beaches and Coastal
Systems,” in his official capacity; “[o]ther unnamed
State Officials, in their official or individual capacity”;
and “[olther anonymous persons, in their individual
capacities.” Included in those groups of “unnamed” and

App. 7
“anonymous” defendants may be a number of officials
who are also referred to in the factual allegations of
the pleadings. Or maybe not.
The Hazens’ latest (and last) pleading does not
specify what claims they are bringing against most of
the named defendants. Eight of the nine counts in the
third amended complaint are labeled as against the
City, against the Department, or both. The one excep­
tion is Count VI, which does not name a defendant at
all but instead alleges in the abstract that certain pro­
visions of law are unconstitutional. None of the counts
specify that the claims (if any) in them are against any
of the officials named or referred to in the “parties” sec­
tion. The Hazens must be trying to bring some sort of
claim against those officials because they named them
as parties defendant. But they never say what those
claims are and those parties as well as the Court are
left to guess what they might be. Fostering guesswork
is not a goal of pleading, and requiring it violates not
only Rule 8 but also Rule 10(b). See Fed. R. Civ. R 10(b)
(“If doing so would promote clarity, each claim founded
on a separate transaction or occurrence . . . must be
stated in a separate count or defense.”).3
3 The City and the Department assert, as another reason
why the third amended complaint is a shotgun pleading, that the
Hazens have failed to specify in what capacity many of the de­
fendants are being sued. The Hazens allege that they are suing
the unnamed city and state officials in their “official or individual
capacity.” (Emphasis added.) That is a failing, the argument goes,
because it affects how those officials must defend against the Ha­
zens’ claims: in an individual-capacity claim a defendant may as­
sert the defense of qualified immunity, see Taplev v. Collins. 211

App. 8
In addition, the Hazens have not provided suffi­
cient notice of which defendants are claimed to be re­
sponsible for which acts and omissions because they
often refer to defendants collectively. See Weiland. 792
F.3d at 1323 (stating that some shotgun pleadings “as­
sert!] multiple claims against multiple defendants
without specifying which of the defendants are respon­
sible for which acts or omissions”). For example, in
Count X,4 which asserts a claim under 42 U.S.C. § 1986,
the Hazens allege collective acts and omissions by
“[t]he City building officials, City attorneys!,] and
City code enforcement officers”; by “the Mayors and
Commissioners”; by “[t]he Department Managers,
Mr. Martinello and Dr. Subbuswammy!,] and unnamed
Department staff”; and by “[t]he State Officials.” They
do not say who the building officials, the city attor­
neys, the code enforcement officers, the mayors, the
F.3d 1210, 1211 n.2 (11th Cir. 2000), while in an official-capacity
claim the plaintiff must establish that a governmental “policy or
custom” was behind the alleged violation of federal law, see Hafer
v. Melo. 502 U.S. 21, 25 (1991).
That may (or may not) be a reason to dismiss a complaint as
a shotgun pleading. A number of district courts in this Circuit
have ruled that it is. See, e.g.. Johnson v. Liberty Countv. No.
4:18-cv-216, 2019 WL 1576303, at *2 (S.D. Ga. Apr. 11, 2019);
Buckner v. Whitlev. No. 3:18-cv-610, 2019 WL 1117914, at *2
(M.D. Ala. Mar. 11, 2019); Thorn v. Randall. No. 8:14-cv-862,2014
WL 5094134, at *2 (M.D. Fla. Oct. 10, 2014). But we need not
decide that question because multiple grounds for dismissal are
not required.
4 We mentioned above that there are nine claims, not ten, in
the third amended complaint. The pleading skips over Count V
(like some elevators skip over the thirteenth floor). As a result,
the claim labeled Count X is actually the ninth one.

App. 9
commissioners, the unnamed department staff, or the
state officials are, let alone who within each group did
what.5
The Hazens contend that the district court erred
because dismissal with prejudice is an “extreme sanc­
tion” that is appropriate only when a party engages in
a clear pattern of delay or willful contempt and the
district court specifically finds that a lesser sanction
would not suffice. But our case law “makes clear that
dismissal of a complaint with prejudice [as a shotgun
pleading] is warranted under certain circumstances.”
Jackson v. Bank of Am.. N.A.. 898 F.3d 1348,1358 (11th
Cir. 2018). One circumstance is where, as here, the
pleader fails to remedy the problems with the com­
plaint after being given another chance (or here two
more chances) to do so. See idThe Hazens also contend that the district court
erred by dismissing their lawsuit with prejudice with­
out giving them a chance to fix their mistakes. We have
held that district courts must give litigants at least one
chance to amend a shotgun pleading. See Vibe Micro.
878 F.3d at 1296. The Hazens are right that the district
court did not give them a chance to fix their mistakes
- it gave them two chances to fix it, twice as many
chances as are required. Instead of fixing the mistakes
they made in their complaint, they doubled down and
replaced one shotgun pleading with another shotgun
5 The complaint does specify that two named individuals are
“include[d]” among the city building officials, but there could be
more. And it says that the commissioners “include” four named
individuals but, again, there could be more.

App. 10
pleading. The district court could have dismissed that
one with prejudice. Instead, the court gave the Hazens
a break and dismissed it without prejudice and even
explained to them what was wrong with it. The court
also urged them to seek legal advice before filing a
third amended complaint because that was going to be
their last chance. Instead of following the court’s ad­
vice, the Hazens filed a third amended complaint that
was as shotgunny as the two that preceded it had been.
Three chances are plenty. There was no abuse of dis­
cretion in dismissing the third amended complaint
with prejudice.
The Hazens protest that the district court saddled
them with a heightened pleading standard. There is,
however, nothing heightened about application of the
rule against shotgun pleading, which is based on Rule
8, Rule 10, and our precedent.
The Hazens also assert that the district court did
not give them the extra leeway accorded to pro se
plaintiffs. See Albra v. Advan, Inc.. 490 F.3d 826, 829
(11th Cir. 2007) (“[W]e are to give liberal construction
to the pleadings of pro se litigants, [although] we nev­
ertheless have required them to conform to procedural
rules.”) (quotation marks omitted). The court did give
the Hazens that much leeway and more. Even pro se
plaintiffs must comply with pleading rules or face
judgment day, which for the Hazens came after the dis­
trict court gave them two chances to replead, and even
some guidance about what was wrong with the way
they had done it before. The district court did not de­
mand that the Hazens, as pro se litigants, submit an

App. 11
artfully drafted or flawless complaint, just one that
gave fair notice to the people the complaint mentioned
about who was a defendant and what the claim or
claims against them was or were. Only after the Hazens failed to do that in a third attempt was judgment
entered against them.
AFFIRMED.

App. 12
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13470-CC
HUONG L. TRAN,
RICHARD W. HAZEN,
Plaintiffs - Appellants,
versus
CITY OF HOLMES BEACH,
a Municipal Corporation of the
State of Florida,
FLORIDA DEPARTMENT OF
ENVIRONMENTAL PROTECTION,
Defendants - Appellees,
CARMEL MONTI,
former City Mayor,
et al.,
Defendants.
Appeal from the United States District Court
for the Middle District of Florida

App. 13
ON PETITIONS) FOR REHEARING AND PETITION(S)
FOR REHEARING EN BANC
(Filed Sep. 24, 2020)
BEFORE: WILSON, BRANCH and ED CARNES, Cir­
cuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having re­
quested that the Court be polled on rehearing en banc.
(FRAP 35) The Petition for Panel Rehearing is also
denied. (FRAP 40)

App. 14
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13470-CC
HUONG L. TRAN,
RICHARD W. HAZEN,
Plaintiffs - Appellants,
versus
CITY OF HOLMES BEACH,
a Municipal Corporation of the
State of Florida,
FLORIDA DEPARTMENT OF
ENVIRONMENTAL PROTECTION,
Defendants - Appellees,
CARMEL MONTI,
former City Mayor,
et al.,
Defendants.
Appeal from the United States District Court
for the Middle District of Florida
(Filed Oct. 22, 2020)

App. 15
ORDER:
The motion of Appellants, Huong Tran and Rich­
ard Hazen, for stay of the issuance of the mandate
pending petition for writ of certiorari is DENIED.
DAVID J. SMITH
Clerk of the United States Court of
Appeals for the Eleventh Circuit
ENTERED FOR THE COURT - BY DIRECTION

App. 16
APPENDIX D
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
RICHARD W. HAZEN and
HUONG L. TRAN,

Case No:
8:19-cv-534-T-30SPF

Plaintiffs,
v.
THE CITY OF HOLMES BEACH,
a Municipal Corporation of the
State of Florida, THE CITY AND
STATE OFFICIALS, and THE
FLORIDA DEPARTMENT OF
ENVIRONMENTAL PROTECTION,
Defendants.
ORDER
(Filed Aug. 6, 2019)
THIS CAUSE conies before the Court on Defen­
dants’ Motions to Dismiss (Dkts. 48, 49) and Plaintiffs’
Memorandum in Opposition (Dkt. 50). The Court con­
cludes that the Motions should be granted and the
Third Amended Complaint should be dismissed with
prejudice because the legal claims remain impermissi­
bly unclear.
Specifically, as this Court stated in its prior Or­
ders, this case concerns a series of events—occurring
over a span of approximately eight years—involving

App. 17
the private construction of a treehouse on coastal prop­
erty. Plaintiffs Richard W. Hazen and Huong L. Tran
own the treehouse and filed this action pro se. The
Court dismissed their prior complaints and explained
why the complaints were insufficiently pled. See (Dkts.
31,42).
Plaintiffs’ Third Amended Complaint (Dkt. 47)
fares no better. Indeed, the pleading remains confusing
and, as Defendants point out in their Motions, it is dif­
ficult for them (and the Court) to understand what
facts relate to what legal claims, especially as they re­
late to events that occurred many years ago regarding
Plaintiffs’ treehouse. The Court sees no reason to re­
hash the pleading deficiencies that were previously
discussed in the Court’s prior Orders. Notably, the
Court stated that Plaintiffs would receive a final op­
portunity to remedy the deficiencies, which largely re­
main. So Plaintiffs’ Third Amended Complaint will be
dismissed with prejudice.
The Court briefly points out that the Third
Amended Complaint would also be subject to dismissal
for the additional reasons stated in the City’s Mo­
tion related to claim preclusion. To briefly summarize,
Plaintiffs had numerous opportunities to raise their
claims in prior litigation before the state court, Second
District Court of Appeal, and the Supreme Court of the
United States. Plaintiffs’ claims here all relate to code
enforcement proceedings that began in 2013. Plaintiffs
challenged the validity and constitutionality of the or­
dinance at issue in two separate appellate matters. At
this point, absent any new factual developments, there

App. 18
is simply no legal basis for Plaintiffs to revitalize their
litigation efforts.
It is therefore ORDERED AND ADJUDGED that:
1.

Defendants’ Motions to Dismiss (Dkts. 48,
49) are granted for the reasons stated in
the Court’s prior Orders and for the rea­
sons stated in the Motions.

2.

Plaintiffs’ Third Amended Complaint is
dismissed with prejudice.

3.

The Clerk of Court is directed to close this
case and terminate any pending motions
as moot.

DONE and ORDERED in Tampa, Florida on
August 6, 2019.
/s/ James S. Moody, Jr.
JAMES S. MOODY, JR.
UNITED STATES
DISTRICT JUDGE
Copies furnished to:
Counsel/Parties of Record

App. 19
APPENDIX E
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
RICHARD W. HAZEN and
HUONG L. TRAN,

Case No:
8:19-cv-534-T-30SPF

Plaintiffs,
v.
THE CITY OF HOLMES BEACH,
a Municipal Corporation of the
State of Florida, THE CITY AND
STATE OFFICIALS, and THE
FLORIDA DEPARTMENT OF
ENVIRONMENTAL PROTECTION,
Defendants.
ORDER
(Filed Aug. 23,2019)
THIS CAUSE conies before the Court on Plaintiffs’
Motion for Reconsideration (Dkt. 52) and Defendants’
Responses in Opposition (Dkts. 53,54). Upon review of
these filings, the Court grants Plaintiffs’ motion to the
extent that the Court has considered the response at­
tached to their motion. (Dkt. 52-1). The Court’s review
and consideration of Plaintiffs’ response, however, does
not change the Court’s conclusion that the Third
Amended Complaint should be dismissed with preju­
dice because the legal claims remain impermissibly

App. 20
unclear and Plaintiffs are not entitled to any addi­
tional amendment. See (Dkt. 51).1
It is therefore ORDERED AND ADJUDGED
that Plaintiff’s Motion for Reconsideration (Dkt. 52) is
granted in part and denied in part as explained herein.
DONE and ORDERED in Tampa, Florida on
August 23, 2019.
/s/ James S. Moody, Jr.
JAMES S. MOODY, JR.
UNITED STATES
DISTRICT JUDGE
Copies furnished to:
Counsel/Parties of Record

1 The Court reiterates that the Third Amended Complaint
would also be subject to dismissal with prejudice for the addi­
tional reasons stated in Defendants’ motions. (Dkts. 48, 49).

App. 21
APPENDIX F - Constitutional, Statutory,
Ordinance, Regulations Involved
Follows are the verbatim texts of the relevant and
specific portion of the constitutional, statutory and or­
dinance provisions involved. Omitted words are indi­
cated with (...) and our emphasis are underlined.
1. First Amendment. “Congress shall make no law
. . ., or prohibiting the free exercise thereof; or abridg­
ing the freedom of speech, or of the press; or the right
of the people peaceably to assemble, and to petition the
Government for a redress of grievances.” U.S. Const.
Amend I.
2. Fifth Amendment. “No person shall be held to an­
swer for a capital, or otherwise infamous crime, . . . ;
nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb;. . ., nor be de­
prived of life, liberty, or property, without due process
of law: nor shall private property be taken for public
use, without just compensation.” U.S. Const. Amend V.
3. Eighth Amendment. “Excessive bail shall not be
required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.” U.S. Const. Amend
VIII.
4. Fourteenth Amendment. Section 1. “All persons
born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United

App. 22
States: nor shall anv State deprive any person of life.
liberty, or property, without due process of law: nor
deny to any person within its jurisdiction the equal
protection of the laws.” U.S. Const. Amend XIV § 1.
5. Title 42 U.S.C. § 1983. Civil action for deprivation
of rights; “Every person who, under color of anv stat­
ute. ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia, subjects,
or causes to be subjected, anv citizen of the United
States or other person within the jurisdiction thereof
to the deprivation of anv rights, privileges, or immuni­
ties secured bv the Constitution and laws, shall be lia­
ble to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except
that in any action brought against a judicial officer for
an act or omission taken in such officer’s judicial ca­
pacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable ...”
6. Title 42 U.S.C. $ 1985(2). Conspiracy to interfere
with civil rights, Obstructing justice; “If two or more
persons conspire for the purpose of impeding, hinder­
ing. obstructing, or defeating, in anv manner, the due
course of justice in anv State or Territory, with intent
to deny to anv citizen the equal protection of the laws.
or to injure him or his property for lawfully enforcing.
or attempting to enforce, the right of any person, or
class of persons, to the equal protection of the laws.”
7. Title 42 U.S.C. $ 1985(3). Depriving persons of
rights or privileges; “If two or more persons in anv

App. 23
State or Territory conspire or go in disguise on the
highway or on the premises of another, for the purpose
of depriving, either directly or indirectly, any person or
class of persons of the equal protection of the laws, or
of equal privileges and immunities under the laws: or
for the purpose of preventing or hindering the consti­
tuted authorities of any State or Territory from giving
or securing to all persons within such State or Terri­
tory the equal protection of the laws: or. . .; in any case
of conspiracy set forth in this section, if one or more
persons engaged therein do. or cause to be done, any
act in furtherance of the object of such conspiracy.
whereby another is injured in his person or property.
or deprived of having and exercising any right or priv­
ilege of a citizen of the United States, the party so in­
jured or deprived mav have an action for the recovery
of damages occasioned by such injury or deprivation.
against any one or more of the conspirators.”
8. Title 42 U.S.C. $1986. Action for neglect to pre­
vent; “Every person who, having knowledge that any of
the wrongs conspired to be done, and mentioned in sec­
tion 1985 of this title, are about to be committed, and
having power to prevent or aid in preventing the com­
mission of the same, neglects or refuses so to do. if such
wrongful act be committed, shall be liable to the party
injured, or his legal representatives, for all damages
caused bv such wrongful act, which such person bv rea­
sonable diligence could have prevented: and such dam­
ages mav be recovered in an action on the case: and
any number of persons guilty of such wrongful neglect
or refusal mav be joined as defendants in the

App. 24
action:.. . . But no action under the provisions of this
section shall be sustained which is not commenced
within one year after the cause of action has accrued.”
9. Fed.R.Civ.P. 8(a). CLAIM FOR RELIEF. “A
pleading that states a claim for relief must contain: (1)
a short and plain statement of the grounds for the
court’s jurisdiction, unless the court already has juris­
diction and the claim needs no new jurisdictional sup­
port; (2) a short and plain statement of the claim
showing that the pleader is entitled to relief; and (3) a
demand for the relief sought, which may include relief
in the alternative or different types of relief.”
10. Fed.R.Civ.P. 8(d)(1). In General. Each allega­
tion must be simple, concise, and direct. No technical
form is required.
11. Fed.R.Civ.P. 8(d)(2). A party may set out 2 or
more statements of a claim or defense alternatively or
hypothetically, either in a single count or in separate
ones. If a party makes alternative statements, the
pleading is sufficient if any one of them is sufficient.
12. Fed.R.Civ.P. 8(d)(3). Inconsistent claims or de­
fenses. A party may state as many separate claims or
defenses as it has, regardless of consistency.
13. Fed.R.Civ.P. 8(e). Pleadings must be construed
so as to do justice.
14. Fed.R.Civ.P. 9(a). Pleading Special Matters. CA­
PACITY OR AUTHORITY TO SUE; LEGAL EXIST­
ENCE.

App. 25
(1) In General. Except when required to
show that the court has jurisdiction, a plead­
ing need not allege: (A) a party’s capacity to
sue or be sued; (B) a party’s authority to sue
or be sued in a representative capacity; or (C)
the legal existence of an organized association
of persons that is made a party.
(2) Raising Those Issues. To raise any of
those issues, a party must do so by a specific
denial, which must state any supporting facts
that are peculiarly within the party’s
knowledge.
15. FedJLCivJ\_9Ib}_- FRAUD OR MISTAKE; CON­
DITIONS OF MIND. In alleging fraud or mistake, a
party must state with particularity the circumstances
constituting fraud or mistake. Malice, intent,
knowledge, and other conditions of a person’s mind
may be alleged generally.
16. Fed.R.Civ.P. 10(h). A party must state its claims
or defenses in numbered paragraphs, each limited as
far as practicable to a single set of circumstances. A
later pleading may refer by number to a paragraph in
an earlier pleading. If doing so would promote clarity,
each claim founded on a separate transaction or occur­
rence—and each defense other than a denial—must be
stated in a separate count or defense.
17. FecLR.Civ.P. 12(h). HOW TO PRESENT DE­
FENSES. Every defense to a claim for relief in any
pleading must be asserted in the responsive pleading
if one is required. But a party may assert the following
defenses by motion: (1) lack of subject-matter

App. 26
jurisdiction; (2) lack of personal jurisdiction; (3) im­
proper venue; (4) insufficient process; (5) insufficient
service of process; (6) failure to state a claim upon
which relief can be granted; and (7) failure to join a
party under Rule 19. ( . . .)
18. FecLR.Civ.P 12(c). MOTION FOR JUDGMENT
ON THE PLEADINGS. After the pleadings are
closed—but early enough not to delay trial—a party
may move for judgment on the pleadings.
19. Fed.R.Civ.P. 12(e). MOTION FOR A MORE
DEFINITE STATEMENT. A party may move for a
more definite statement of a pleading to which a re­
sponsive pleading is allowed but which is so vague or
ambiguous that the party cannot reasonably prepare a
response. The motion must be made before filing a re­
sponsive pleading and must point out the defects com­
plained of and the details desired. If the court orders a
more definite statement and the order is not obeyed
within 14 days after notice of the order or within the
time the court sets, the court may strike the pleading
or issue any other appropriate order.
20. Fed.R.Civ.P. 17(d). A public officer who sues or
is sued in an official capacity may be designated by of­
ficial title rather than by name, but the court may or­
der that the officer’s name be added.
21. Fed.R.Civ.P. 18. Joinder of Claims, (a) IN GEN­
ERAL. A party asserting a claim, counterclaim, cross­
claim, or third-party claim may join, as independent or
alternative claims, as many claims as it has against an
opposing party, (b) JOINDER OF CONTINGENT

App. 27
CLAIMS. A party may join two claims even though one
of them is contingent on the disposition of the other;
but the court may grant relief only in accordance with
the parties’ relative substantive rights. (...)
22. Fed.R.Civ.P. 20(a)(2). Permissive Joinder of
Parties—Defendants. Persons—as well as a vessel,
cargo, or other property subject to admiralty process in
rem - may be joined in one action as defendants if: (A)
any right to relief is asserted against them jointly, sev­
erally, or in the alternative with respect to or arising
out of the same transaction, occurrence, or series of
transactions or occurrences; and (B) any question of
law or fact common to all defendants will arise in the
action.
23. Fed.R.Civ.P. 21. Misjoinder and Nonjoinder of
Parties—Misjoinder of parties is not a ground for dis­
missing an action. On motion or on its own, the court
may at any time, on just terms, add or drop a party. The
court may also sever any claim against a party.
24. FecLR.Civ.P. 25(d). An action does not abate
when a public officer who is a party in an official ca­
pacity dies, resigns, or otherwise ceases to hold office
while the action is pending. The officer’s successor is
automatically substituted as a party.
25. Article X. §11 Fla. Const. Sovereignty lands.
The title to lands under navigable waters, within the
boundaries of the state, which have not been alienated,
including beaches below mean high water lines, is held
bv the state, bv virtue of its sovereignty, in trust for all
the people . . .

App. 28
26. § 161.052 Fla. Stat. Coastal construction and ex­
cavation; regulation.18 This is a lengthy section, only
part is reprinted. Full text is available at
http ://www. leg. state, fl. us/Statutes
(1) No person, firm, corporation, municipality,
county, or other public agency shall excavate or con­
struct any dwelling house, hotel, motel, apartment
building, seawall, revetment, or other structure inci­
dental to or related to such structure, including but not
limited to such attendant structures or facilities as a
patio, swimming pool, or garage, within 50 feet of the
line of mean high water at any riparian coastal loca­
tion fronting the Gulf of Mexico or Atlantic coast shore­
line of the state, exclusive of bays, inlets, rivers, bayous,
creeks, passes, and the like. In areas where an erosion
control line has been established under the provisions
of ss. 161.141-161.211. that line, or the presently exist­
ing mean high-water line, whichever is more landward,
shall be considered to be the mean high-water line for
the purposes of this section.
(2) A waiver or variance of the setback require­
ments mav be authorized by the department in the fol­
lowing circumstances:
(a) The department may authorize an excavation
or erection of a structure at any riparian coastal loca­
tion as described in subsection (1) upon receipt of an
application from a riparian owner and upon the
18 § 161.053 supersedes § 161.052 where a Coastal Construc­
tion Control Line (CCCL) is established. See § 161.053(10). Peti­
tioners’ property is located seaward of the CCCL.

App. 29
consideration of facts and circumstances, including ad­
equate engineering data concerning shoreline stability
and storm tides related to shoreline topography, which,
in the opinion of the department, clearly and unequiv­
ocally justify such a waiver or variance.
(b) If in the immediate contiguous or adjacent
area a number of existing structures have established
a reasonably continuous and uniform construction line
closer to the line of mean high water than the forego­
ing. and if said existing structures have not been un­
duly affected by erosion, a proposed structure mav be
permitted along such line on written authorization
from the department if such proposed structure com­
plies with the Florida Building Code and the rules of
the department. However, the department shall not
contravene setback requirements established by a
county or municipality which are equal to, or more
strict than, those setback requirements provided
herein.
(c) (...) pipelines or piers . . .
(3) The provisions of this section shall not apply
to structures intended for shore protection purposes
which are regulated by s. 161.041 or to structures ex­
isting or under construction on June 27,1970.
(4) The department may by regulation exempt
specifically described portions of the coastline from the
provisions of this section whenever in its judgment
such portions of coastline, because of their nature, are
not subject to erosion of a substantially damaging ef­
fect to the public.

App. 30
(5) The setback requirements as defined herein
shall not apply to any riparian coastal locations front­
ing the Atlantic Ocean or Gulf of Mexico which have
vegetation-type nonsandy shores.
(6) The setback requirements defined in subsec­
tion (1) shall not apply to any modification, mainte­
nance, or repair to any existing structure within limits
of the existing foundation which does not require, in­
volve, or include any additions to, or repair or modifi­
cation of, the existing foundation of that structure.
Specifically excluded from this exemption are seawalls
and any additions or enclosures added, constructed, or
installed below the first dwelling floor or lowest deck
of the existing structure.
(7) Any coastal structure erected, or excavation
created, in violation of the provisions of this section is
hereby declared to be a public nuisance, and such
structure shall be forthwith removed or such excava­
tion refilled after written notice by the department di­
recting such removal or filling. In the event that the
structure is not removed or the excavation refilled as
directed within a reasonable time, the department may
remove such structure or fill such excavation at its own
expense. The cost thereof shall become a lien upon the
property of the upland owner upon which such unau­
thorized structure or excavation is located.
(8) Any person violating any provision of this
section is guilty of a misdemeanor of the first degree,
punishable as provided in s. 775.083. Such person shall
be deemed guilty of a separate offense for each month

App. 31
during any portion of which any violation of this sec­
tion is committed or continued.
(9) (...)
(10) A coastal county or municipality fronting on
the Gulf of Mexico or the Atlantic Ocean shall advise
the department within 5 days after receipt of any per­
mit application for construction or other activities pro­
posed to be located within 50 feet of the line of mean
high water. Within 5 days after receipt of such applica­
tion, the county or municipality shall notify the appli­
cant of the requirements for state permits.
(11) The department is authorized to adopt rules
for the implementation of the following provisions of
this section: excavation and construction; setback re­
quirements; waivers or variances; exemptions; the re­
moval of unauthorized structures or refilling of
unauthorized excavations; and violations and penal­
ties.
(12) In accordance with ss. 553.73 and 553.79,
and upon the effective date of the Florida Building
Code, the provisions of this section which pertain to
and govern the design, construction, erection, altera­
tion, modification, repair, and demolition of public and
private buildings, structures, and facilities shall be in­
corporated into the Florida Building Code. The Florida
Building Commission shall have the authority to adopt
rules pursuant to ss. 120.536 and 120.54 in order to
implement those provisions. This subsection does not
limit or abrogate the right and authority of the depart­
ment to require permits or to adopt and enforce

App. 32
environmental standards, including but not limited to,
standards for ensuring the protection of the beachdune system, proposed or existing structures, adjacent
properties, marine turtles, native salt-resistant vege­
tation, endangered plant communities, and the preser­
vation of public beach access.
27. § 161.053 Fla. Stat. Coastal construction and
excavation; regulation on county basis. This section
is very lengthy and difficult to understand, only
part is reprinted. Full text is available at
http ://www. leg. state, fl. us/Statutes
(1) (a) The Legislature finds and declares that the
beaches in this state and the coastal barrier dunes ad­
jacent to such beaches, by their nature, are subject to
frequent and severe fluctuations and represent one of
the most valuable natural resources of Florida and
that it is in the public interest to preserve and protect
them from imprudent construction which can jeopard­
ize the stability of the beach-dune system, accelerate
erosion, provide inadequate protection to upland struc­
tures, endanger adjacent properties, or interfere with
public beach access. In furtherance of these findings, it
is the intent of the Legislature to provide that the de­
partment establish coastal construction control lines
on a countv basis along the sand beaches of the state
fronting on the Atlantic Ocean, the Gulf of Mexico, or
the Straits of Florida. Such lines shall be established
so as to define that portion of the beach-dune system
which is subject to severe fluctuations based on a 100year storm surge, storm waves, or other predictable
weather conditions. However, the department may

App. 33
establish a segment or segments of a coastal construc­
tion control line further landward than the impact
zone of a 100-year storm surge, provided such segment
or segments do not extend beyond the landward toe of
the coastal barrier dune structure that intercepts the
100-year storm surge. Such segment or segments shall
not be established if adequate dune protection is pro­
vided by a state-approved dune management plan.
Special siting and design considerations shall be nec­
essary seaward of established coastal construction con­
trol lines to ensure the protection of the beach-dune
system, proposed or existing structures, and adjacent
properties and the preservation of public beach access.
(b) As used in this subsection:
1. When establishing coastal construction con­
trol lines as provided in this section, the definition of
“sand beach” shall be expanded to include coastal bar­
rier island ends contiguous to the sand beaches of the
state fronting on the Atlantic Ocean, the Gulf of Mex­
ico, or the Straits of Florida.
2. “Coastal barrier island ends” means those ar­
eas on the ends of barrier islands fronting the Atlantic
Ocean, the Gulf of Mexico, or the Straits of Florida,
which are subject_to severe fluctuations based on a
100-year storm surge, storm waves, or other predicta­
ble weather conditions.
3. “Coastal barrier islands” means geological fea­
tures which are completely surrounded by marine wa­
ters that front upon the open waters of the Atlantic
Ocean, the Gulf of Mexico, or the Straits of Florida and

App. 34
are composed of quartz sands, clays, limestone, oolites,
rock, coral, coquina, sediment, or other material, in­
cluding spoil disposal, which features lie above the line
of mean high water. Mainland areas which were sepa­
rated from the mainland by artificial channelization
for the purpose of assisting marine commerce shall not
be considered coastal barrier islands.
(c) Coastal construction control lines shall be set
on coastal barrier island ends only in conjunction with
the resetting of the coastal construction control line
throughout the entire county within which the barrier
island end is located, and shall not be established on
reaches of coastal barrier island ends where the shore
is vegetated with mangroves.
(2) (a) Coastal construction control lines shall be es­
tablished by the department only after it has been de­
termined from a comprehensive engineering study and
topographic survey that the establishment of such con­
trol lines is necessary for the protection of upland prop­
erties and the control of beach erosion. No such line
shall be set until a public hearing has been held in each
affected county. After the department has given consid­
eration to the results of such public hearing, it shall,
after considering ground elevations in relation to his­
torical storm and hurricane tides, predicted maximum
wave uprush, beach and offshore ground contours, the
vegetation line, erosion trends, the dune or bluff line, if
any exist, and existing upland development, set and
establish a coastal construction control line and cause
such line to be duly filed in the public records of any
county affected and shall furnish the clerk of the

App. 35
circuit court in each county affected a survey of such
line with references made to permanently installed
monuments at such intervals and locations as may be
considered necessary. However, no coastal construction
control line shall be set until a public hearing has been
held by the department and the affected persons have
an opportunity to appear. The hearing shall constitute
a public hearing and shall satisfy all requirements for
a public hearing pursuant to s. 120.54(3). The hearing
shall be noticed in the Florida Administrative Register
in the same manner as a rule. Any coastal construction
control line adopted pursuant to this section shall not
be subject to a s. 120.56(2) rule challenge or a s.
120.54(3)(c)2. drawout proceeding, but, once adopted,
shall be subject to a s. 120.56(3) invalidity challenge.
The rule shall be adopted by the department and shall
become effective upon filing with the Department of
State, notwithstanding the provisions of s.
120.54(3)(e)6. Upon such filing with the Department of
State, no person, firm, corporation, or governmental
agency shall construct any structure whatsoever sea­
ward thereof; make any excavation, remove any beach
material, or otherwise alter existing ground elevations;
drive any vehicle on, over, or across any sand dune; or
damage or cause to be damaged such sand dune or the
vegetation growing thereon seaward thereof, except as
hereinafter provided. Control lines established under
the provisions of this section shall be subject to review
at the discretion of the department after consideration
of hydrographic and topographic data that indicate
shoreline changes that render established coastal con­
struction control lines to be ineffective for the purposes

App. 36
of this act or at the written request of officials of af­
fected counties or municipalities. Any riparian upland
owner who feels that such line as established is unduly
restrictive or prevents a legitimate use of the owner’s
property shall be granted a review of the line upon
written request. After such review, the department
shall decide if a change in the_control line as estab­
lished is justified and shall so notify the person or per­
sons making the request. The decision of the
department shall be subject to judicial review as pro­
vided in chapter 120.
(b)l. The department shall exempt construction
proposed for a location seaward of a coastal construc­
tion control line and landward of existing armoring
from certain siting and design criteria of this chapter.
provided the armoring is capable of protecting the pro­
posed construction from the effects of erosion from a
100-year storm surge. The exemption shall apply to
proposed structures involving the foundation, siting,
and excavation criteria of this section, except such
structures shall be: (. . .)
(3) A coastal county or coastal municipality mav es­
tablish coastal construction zoning and building codes
in lieu of the provisions of this section if such zones and
codes are approved bv the department as being ade­
quate to preserve and protect the beaches and coastal
barrier dunes adjacent to such beaches, which are un­
der the jurisdiction of the department, from imprudent
construction that will jeopardize the stability of the
beach-dune system, accelerate erosion, provide inade­
quate protection to upland structures, endanger

App. 37
adjacent properties, or interfere with public beach ac­
cess. Exceptions to locally established coastal construc­
tion zoning and building codes mav not be granted
unless previously approved by the department. The in­
tent of this subsection is to provide for the local admin­
istration of established coastal construction control
lines through approved zoning and building codes if de­
sired bv local interests and where such local interests
have, in the judgment of the department, sufficient
funds and personnel to adequately administer the pro­
gram. Should the department determine at any time
that the program is inadequately administered, the de­
partment may revoke the authority granted to the
county or municipality.
(4) Except in those areas where local zoning and
building codes have been established pursuant to sub­
section (3). a permit to alter, excavate, or construct on
property seaward of established coastal construction
control lines may be granted bv the department as fol­
lows:
(a) The department may authorize an excavation
or erection of a structure at any coastal location as de­
scribed in subsection (1) upon receipt of an application
from a property or riparian owner and upon the con­
sideration of facts and circumstances, including: (. . .)
(b) If in the immediate contiguous or adjacent
area a number of existing structures have established
a reasonably continuous and uniform construction line
closer to the line of mean high water than the forego­
ing. and if the existing structures have not been unduly

App. 38
affected by erosion, a proposed structure may be per­
mitted along such line on written authorization from
the department if the structure is also approved by the
department. However, the department mav not contra­
vene setback requirements or zoning or building codes
established bv a county or municipality which are
equal to. or more strict than, the requirements pro­
vided in this subsection. This paragraph does not pro­
hibit the department from requiring structures to meet
design and siting criteria established in paragraph (a)
or in subsection (1) or subsection (2). (c)-(f) (....)
(5) (a) ( . . .)
(b) After October 1, 1985, and notwithstanding
any other provision of this part, the department, or a
local government to which the department has dele­
gated permitting authority pursuant to subsections (3)
and (15), may not issue a permit for any structure,
other than a coastal or shore protection structure, mi­
nor structure, or pier, meeting the requirements of this
part, or other than intake and discharge structures for
a facility sited pursuant to part II of chapter 403,
which is proposed for a location that, based on the de­
partment’s projections of erosion in the area, will be
seaward of the seasonal high-water line within 30
years after the date of application for the permit. The
procedures for determining such erosion shall be es­
tablished by rule. In determining the area that will be
seaward of the seasonal high-water line in 30 years,
the department may not include any areas landward
of a coastal construction control line.

App. 39
(c)-(d)-(e) (...)
(6)-(8) (. . .)

(9) The department may exempt specifically de­
scribed portions of the coastline from the provisions of
this section if, in its judgment, such portions of coast­
line because of their nature are not subject to erosion
of a substantially damaging effect to the public.
(10) Pending the establishment of coastal construc­
tion control lines as provided herein, the provisions of
s. 161.052 shall remain in force. However, upon the es­
tablishment of coastal construction control lines, or the
establishment of coastal construction zoning and
building codes as provided in subsection (3). s. 161.052
shall be superseded by the provisions of this section.
(ID (a) (...)
(b) Activities seaward of the coastal construction
control line which are determined by the department
not to cause a measurable interference with the natu­
ral functioning of the coastal system are exempt from
the requirements of subsection (4).
(c) The department mav establish exemptions
from the requirements of this section for minor activi­
ties determined bv the department not to have an ad­
verse effect on the coastal system. Examples of such
activities include, but are not limited to:
1. Boat moorings;
2. Maintenance of existing beach-dune vegeta­
tion;

App. 40
3. The burial of seaweed, dead fish, whales, or
other marine animals on the unvegetated beach;
4. The removal of piers or other derelict struc­
tures from the unvegetated beach or seaward of mean
high_water;
5. Temporary emergency vehicular access, if the
affected area is immediately restored;
6. The removal of any existing structures or de­
bris from the upland, if there is no excavation or dis­
turbance to the existing topography or to beach-dune
vegetation;
7. Construction of a new roof overhang extend­
ing no more than 4 feet beyond the confines of the ex­
isting foundation during modification, renovation, or
reconstruction of a habitable structure within the con­
fines of the existing foundation of that structure which
does not include any additions to or modification of the
existing foundation of that structure;
8. Minor and temporary excavation for the pur­
pose of repairs to existing subgrade residential service
utilities (e.g., water and sewer lines, septic tanks and
drainfields, electrical and telephone cables, and gas
lines), if there is minimal disturbance and the grade is
restored with fill compatible in both coloration and
grain size to the onsite material and any damaged or
destroyed vegetation is restored using similar vegeta­
tion; and
9. Any other minor construction that has an ef­
fect similar to the above activities.

App. 41
(12) (a) Notwithstanding the coastal construction
control requirements defined in subsection (1) or the
erosion projection determined pursuant to subsection
(5), the department may issue a permit for the repair
or rebuilding within the confines of the original foun­
dation of a major structure pursuant to subsection (4).
Alternatively, the department may also issue a permit
for a more landward relocation or rebuilding of a dam­
aged or existing structure if such relocation or rebuild­
ing would not cause further harm to the beach-dune
system, and if, in the case of rebuilding, the rebuilding
complies with subsection (4) and otherwise complies
with this subsection.
(b) The department may not permit repairs or re­
building that expands the capacity of the original
structure seaward of the 30-year erosion projection es­
tablished pursuant to subsection (5).
(c) In reviewing applications for relocation or re­
building, the department shall specifically consider
changes in shoreline conditions, the availability of
other relocation or rebuilding options, and the design
adequacy of the project sought to be rebuilt.
(d) Permits issued under this subsection are not
considered precedential as to the issuance of subse­
quent permits.
(13) (...)
(14) A coastal county or municipality fronting on the
Gulf of Mexico, the Atlantic Ocean, or the Straits of
Florida shall advise the department within 5 days

App. 42
after receipt of any permit application for construction
or other activities proposed to be located seaward of
the line established by the department pursuant to
this section. Within 5 days after receipt of such appli­
cation, the county or municipality shall notify the ap­
plicant of the requirements for state permits.
(15) In keeping with the intent of subsection (3), au­
thority for permitting certain types of activities that
have been defined by the department may be delegated
by the department to a coastal county or coastal mu­
nicipality. Such partial delegation shall be narrowly
construed to those particular activities specifically
named in the delegation and agreed to by the affected
county or municipality. The delegation may be revoked
by the department at any time if it is determined that
the delegation is improperly or inadequately adminis­
tered.
(16) - (17) (...)
(18) (a) The department mav grant general permits
for projects, including dune restoration, dune walk­
overs. decks, fences, landscaping, sidewalks, driveways.
pool resurfacing, minor pool repairs, and other nonhabitable structures, if the projects, due to type, size, or
temporary nature, will not cause a measurable inter­
ference with the natural functioning of the beach-dune
system or with marine turtles or their nesting sites.
Multifamilv habitable structures do not qualify for
general permits. However, single-family habitable
structures and swimming pools associated with such
single-family habitable structures that do not advance

App. 43
the line of existing construction and satisfy all siting
and design requirements of this section, and minor re­
construction for existing coastal armoring structures,
may be eligible for a general permit.
(b)-(d) (...)
(19) (...)
(20) The department may adopt rules related to the
establishment of coastal construction control lines; ac­
tivities seaward of the coastal construction control line;
exemptions; property owner agreements; delegation of
the program; permitting programs; and violations and
penalties.
(21) In accordance with ss. 553.73 and 553.79, and
upon the effective date of the Florida Building Code,
the provisions of this section which pertain to and gov­
ern the design, construction, erection, alteration, mod­
ification, repair, and demolition of public and private
buildings, structures, and facilities shall be incorpo­
rated into the Florida Building Code. The Florida
Building Commission may adopt rules pursuant to ss.
120.536 and 120.54 to administer those provisions.
This subsection does not limit or abrogate the right
and authority of the department to require permits or
to adopt and enforce environmental standards, includ­
ing, but not limited to, standards for ensuring the pro­
tection of the beach-dune system, proposed or existing
structures, adjacent properties, marine turtles, native
salt-resistant vegetation, endangered plant communi­
ties, and the preservation of public beach access.

App. 44
28. § 161.141 Fla. Stat. Property rights of state and
private upland owners in beach restoration project ar­
eas. The Legislature declares that it is the public policy
of the state to cause to be fixed and determined, pursu­
ant to beach restoration, beach nourishment, and ero­
sion control projects, the boundary line between
sovereignty lands of the state bordering on the Atlantic
Ocean, the Gulf of Mexico, or the Straits of Florida, and
the bays, lagoons, and other tidal reaches thereof, and
the upland properties adjacent thereto; except that
such boundary line shall not be fixed for beach resto­
ration projects that result from inlet or navigation
channel maintenance dredging projects unless such
projects involve the construction of authorized beach
restoration projects. However, prior to construction of
such a beach restoration project, the board of trustees
must establish the line of mean high water for the area
to be restored: and any additions to the upland prop­
erty landward of the established line of mean high wa­
ter which result from the restoration project remain
the property of the upland owner subject to all govern­
mental regulations and are not to be used to justify
increased density or the relocation of the coastal con­
struction control line as may be in effect for such up­
land property. The resulting additions to upland
property are also subject to a public easement for tra­
ditional uses of the sandy beach consistent with uses
that would have been allowed prior to the need for the
restoration project. It is further declared that there is
no intention on the part of the state to extend its claims
to lands not already held bv it or to deprive any upland
or submerged land owner of the legitimate and

App. 45
constitutional use and enjoyment of his or her prop­
erty. If an authorized beach restoration, beach nourish­
ment. and erosion control project cannot reasonably be
accomplished without the taking of private property.
the taking must be made by the requesting authority
bv eminent domain proceedings. In any action alleging
a taking of all or part of a property or property right as
a result of a beach restoration project, in determining
whether such taking has occurred or the value of any
damage alleged with respect to the owner’s remaining
upland property adjoining the beach restoration pro­
ject, the enhancement, if any, in value of the owner’s
remaining adjoining property of the upland property
owner by reason of the beach restoration project shall
be considered. If a taking is judicially determined to
have occurred as a result of a beach restoration project,
the enhancement in value to the owner’s remaining ad­
joining property by reason of the beach restoration pro­
ject shall be offset against the value of the damage, if
any, resulting to such remaining adjoining property of
the upland property owner by reason of the beach res­
toration project, but such enhancement in the value
shall not be offset against the value of the property or
property right alleged to have been taken. If the en­
hancement in value shall exceed the value of the dam­
age, if any, to the remaining adjoining property, there
shall be no recovery over against the property owner
for such excess.
29. § 161.191 Fla. Stat. Vesting of title to lands.
(1) Upon the filing of a copy of the board of trus­
tees’ resolution and the recording of the survey

App. 46
showing the location of the erosion control line and the
area of beach to be protected as provided in s. 161.181,
title to all lands seaward of the erosion control line
shall be deemed to be vested in the state by right of its
sovereignty, and title to all lands landward of such line
shall be vested in the riparian upland owners whose
lands either abut the erosion control line or would have
abutted the line if it had been located directly on the
line of mean high water on the date the board of trus­
tees’ survey was recorded.
(2) Once the erosion control line along any seg­
ment of the shoreline has been established in accord­
ance with the provisions of ss. 161.141-161.211, the
common law shall no longer operate to increase or de­
crease the proportions of any upland property lying
landward of such line, either by accretion or erosion or
by any other natural or artificial process, except as pro­
vided in s. 161.211(2) and (3). However, the state shall
not extend, or permit to be extended through artificial
means, that portion of the protected beach lying sea­
ward of the erosion control line beyond the limits set
forth in the survey recorded by the board of trustees
unless the state first obtains the written consent of all
riparian upland owners whose view or access to the
water’s edge would be altered or impaired.
30. § 161.201 Fla. Stat. Preservation of common-law
rights. Any upland owner or lessee who by operation of
ss. 161.141-161.211 ceases to be a holder of title to the
mean high-water line shall, nonetheless, continue to be
entitled to all common-law riparian rights except as
otherwise provided in s. 161.191(2), including but not

App. 47
limited to rights of ingress, egress, view, boating, bath­
ing, and fishing. In addition the state shall not allow
any structure to be erected upon lands created, either
naturally or artificially, seaward of any erosion control
line fixed in accordance with the provisions of ss.
161.141-161.211, except such structures required for
the prevention of erosion. Neither shall such use be
permitted by the state as may be injurious to the per­
son, business, or property of the upland owner or les­
see; and the several municipalities, counties and
special districts are authorized and directed to enforce
this provision through the exercise of their respective
police powers.
31. 8 161.54 Fla. Stat Definitions.
(1)to(5)(...)
(6)(a) “Major structure” means houses, mobile
homes, apartment buildings, condominiums, motels,
hotels, restaurants, towers, other types of residential,
commercial, or public buildings, and other construction
having the potential for substantial impact on coastal
zones.
(b) “Minor structure” means pile-supported, ele­
vated dune and beach walkover structures: beach ac­
cess ramps and walkways: stairways: pile-supported,
elevated viewing platforms, gazebos, and boardwalks:
lifeguard support stands: public and private bath­
houses: sidewalks, driveways, parking areas, shuffleboard courts, tennis courts, handball courts.
racquetball courts, and other uncovered paved areas:
earth retaining walls: and sand fences, privacy fences.

App. 48
ornamental walls, ornamental garden structures.
aviaries, and other ornamental construction. It shall be
a characteristic of minor structures that they are con­
sidered to be expendable under design wind, wave, and
storm forces.
(c) “Nonhabitable major structure” means swim­
ming pools; parking garages; pipelines; piers; canals,
lakes, ditches, drainage structures, and other water re­
tention structures; water and sewage treatment
plants; electrical power plants, and all related struc­
tures or facilities, transmission lines, distribution
lines, transformer pads, vaults, and substations; roads,
bridges, streets, and highways; and underground stor­
age tanks.
(d) (...)
(9) “Department” means the Department of En­
vironmental Protection.
32. $ 162.11 Fla. Stat. Appeals. An aggrieved party,
including the local governing body, may appeal a final
administrative order of an enforcement board to the
circuit court. Such an appeal shall not be a hearing de
novo but shall be limited to appellate review of the rec­
ord created before the enforcement board. An appeal
shall be filed within 30 days of the execution of the or­
der to be appealed.
33. $ 163.3167(8) Fla. Stat. (a) An initiative or ref­
erendum process in regard to any development order
is prohibited.

App. 49
(b) An initiative or referendum process in regard
to any local comprehensive plan amendment or map
amendment is prohibited unless it is expressly author­
ized by specific language in a local government charter
that was lawful and in effect on June 1,2011. A general
local government charter provision for an initiative or
referendum process is not sufficient.
(c) It is the intent of the Legislature that initia­
tive and referendum be prohibited in regard to any de­
velopment order. It is the intent of the Legislature that
initiative and referendum be prohibited in regard to
any local comprehensive plan amendment or map
amendment, except as specifically and narrowly al­
lowed by paragraph (b). Therefore, the prohibition on
initiative and referendum stated in paragraphs (a) and
(b) is remedial in nature and applies retroactively to
any initiative or referendum process commenced after
June 1, 2011, and any such initiative or referendum
process commenced or completed thereafter is deemed
null and void and of no legal force and effect.
34. $ 253.141 Fla. Stat. Riparian rights defined; cer­
tain submerged bottoms subject to private ownership.
(1) Riparian rights are those incident to land border­
ing upon navigable waters. They are rights of ingress,
egress, boating, bathing, and fishing and such others
as may be or have been defined by law. Such rights are
not of a proprietary nature. They are rights inuring to
the owner of the riparian land but are not owned by
him or her. They are appurtenant to and are insepara­
ble from the riparian land. The land to which the
owner holds title must extend to the ordinary high

App. 50
watermark of the navigable water in order that ripar­
ian rights may attach. Conveyance of title to or lease
of the riparian land entitles the grantee to the riparian
rights running therewith whether or not mentioned in
the deed or lease of the upland.
35. $553.72(1) Fla. Stat. Intent. The purpose and
intent of this act is to provide a mechanism for the uni­
form adoption, updating, amendment, interpretation,
and enforcement of a single, unified state building
code, to be called the Florida Building Code, which con­
sists of a single set of documents that apply to the de­
sign, construction, erection, alteration, modification,
repair, or demolition of public or private buildings,
structures, or facilities in this state and to the enforce­
ment of such requirements and which will allow effec­
tive and reasonable protection for public safety, health,
and general welfare for all the people of Florida at the
most reasonable cost to the consumer. The Florida
Building Code shall be organized to provide con­
sistency and simplicity of use. The Florida Building
Code shall be applied, administered, and enforced uni­
formly and consistently from jurisdiction to jurisdic­
tion. The Florida Building Code shall provide for
flexibility to be exercised in a manner that meets min­
imum requirements, is affordable, does not inhibit
competition, and promotes innovation and new tech­
nology. The Florida Building Code shall establish min­
imum standards primarily for public health and
lifesafety, and secondarily for protection of property as
appropriate.

App. 51
36. Fla. Building Code (7th Edition) Chapter 31
Special Construction § 3109.1 — General. The provi­
sions of this section shall apply to the design and con­
struction of habitable structures, and substantial
improvement or repair of substantial damage of such
structures, that are entirely seaward of, and portions
of such structures that extend seaward of, the coastal
construction control line or seaward of the 50-foot set­
back line, whichever is applicable. This section does not
apply to structures that are not habitable structures,
as defined in this section. Section 1612 shall apply to
habitable structures and structures that are not hab­
itable structures if located in whole or in part in special
flood hazard areas established in Section 1612.3.
37. Fla. Building Code (7th Edition) Chapter 31
Special Construction § 3109.2 - Definitions. FIFTYFOOT SETBACK LINE. A line of jurisdiction, estab­
lished pursuant to the provisions of Section 161.052,
Florida Statutes, in which construction is prohibited
within 50 feet (15.13 m) of the line of mean high water
at any riparian coastal location fronting the Gulf of
Mexico or the Atlantic coast shoreline.
38. Fla. Building Code (7th Edition). Chapter 1.
Part 2 Administration and Enforcement § 102.
Applicability.
102.2.5 Each enforcement district shall be gov­
erned by a board, the composition of which shall be de­
termined by the affected localities.
[A] 102.4 Referenced codes and standards. The
codes and standards referenced in this code shall be

App. 52
considered part of the requirements of this code to the
prescribed extent of each such reference and as further
regulated in Sections 102.4.1 and 102.4.2.
[A] 102.4.1 Conflicts. Where conflicts occur be­
tween provisions of this code and referenced codes and
standards, the provisions of this code shall apply.
[A] 102.4.2 Provisions in referenced codes and
standards. Where the extent of the reference to a ref­
erenced code or standard includes subject matter that
is within the scope of this code or the Florida Codes
listed in Section 101.4, the provisions of this code or
the Florida Codes listed in Section 101.4, as applicable,
shall take precedence over the provisions in the refer­
enced code or standard.
39. Fla. Admin. Code 62B-33.002(17). “Fifty (50)foot Setback” or “Setback Line” is the line of jurisdic­
tion established pursuant to the provisions of Section
161.052, F.S., in which construction is prohibited
within 50 feet of the line of mean high water at any
riparian coastal location fronting the Gulf of Mexico or
the Atlantic coast shoreline.
40. Fla. Admin. Code 62B-33-004(2). In addition to
the exemptions provided in section 161.053(11), F.S.,
the following are exempt from the provisions of section
161.053, F.S., and this Chapter:
(c) Minor activities that are not part of a larger
project or development, and do not cause a disturbance
to any significant or primary dune, do not disturb
marked or known marine turtle nests, damage existing

App. 53
native salt-tolerant vegetation, obstruct public access.
or damage adjacent properties. Exempt minor activi­
ties include:
1. Beach or deck furniture and awnings. (Omit 2.
To 7.)

8. Minor structures, including but not limited to
driveways, water wells, and irrigation wells which are
either located within the landward shadow of existing
habitable major structures, landward of the second
line of development of major structures, or landward of
public evacuation routes.
9. Maintenance or repair of the structures listed
below. The structure(s) must be located a minimum of
30 feet landward of the frontal dune, escarpment, or
coastal armoring structure, and the maintenance or
repair must not expand or enlarge the existing struc­
ture^). (...)
41. Fla. Admin. Code 62B-33.005. General Criteria
for Areawide and Individual Permits.
(1) The beach and dune system is an integral
part of the coastal system and represents one of the
most valuable natural resources in Florida, providing
protection to adjacent upland properties, recreational
areas, and habitat for wildlife. The CCCL is intended
to define that portion of the beach and dune system
which is subject to severe fluctuations caused by a

App. 54
100-year storm surge, storm waves, or other forces
such as wind, wave, or water level changes. These fluc­
tuations are a necessary part of the natural function­
ing of the coastal system and are essential to post­
storm recovery, long term stability, and the preserva­
tion of the beach and dune system. The CCCL and 50foot setback call attention to the special hazards and
impacts associated with the use of such property, but
do not preclude all development or alteration of coastal
property seaward of such lines.
42. City of Holmes Beach Code of Ordinances.
Part III Land Development Code Art I § 1.2 - Interpretation.
In the interpretation and application of this ordi­
nance, all standards, criteria and requirements shall
be liberally construed in favor of the purposes and
goals of the City of Holmes Beach and deemed neither
to limit nor repeal any other lawful regulatory powers
of the city.
Where this ordinance conflicts with or overlaps
other ordinances or regulations, the more stringent
shall prevail.
In the event any issue arises concerning the appli­
cation of regulations, definitions, development criteria,
performance standards or any other provisions of this
ordinance, the building official shall be responsible for
their interpretation. Responsibility for interpretation
by the building official shall be limited to standards,
regulations and requirements of this ordinance. Such

App. 55
responsibility shall not be construed to substitute for
or abrogate any rights or responsibilities specified to
the mayor or the city commission or any board or offi­
cial named in other sections of this ordinance. The
building official shall rely upon the policies adopted or
amended in the City of Holmes Beach Comprehensive
Plan in making any such interpretation. (Ord. No. 0704, § 2(Exh. A), 3-27-07).
§ 1.3-Abrogation.
.... The ordinance is not intended to repeal any
lawful approval heretofore granted bv official city ac­
tion. (Ord. No. 07-04, § 2(Exh. A), 3-27-07).
43. City of Holmes Beach Code of Ordinances.
Part III Land Development Code Art. II $ 2.4 - Pro­
cedure for appealing administrative decisions. The
building official is responsible for administering and
interpreting this ordinance. Administrative decisions
of the building official, including official interpreta­
tions of the Land Development Code pursuant to sec­
tion 2.2, are final decisions. Any party who has been
adversely affected by an interpretation made by the
building official or has had a building permit denied by
the building official may seek review of such decision
in a court of competent jurisdiction. (Ord. No. 07-04,
§ 2(Exh. A), 3-27-07).
44. City of Holmes Beach Code of Ordinances.
Part III Land Development Code Art. V Div. 1
$5.2- Variances prohibited.

App. 56
A. Under no circumstances shall a variance be
granted to permit a use not generally permitted, per­
mitted by administrative review, or allowed by special
exception in the zoning district involved. No variance
shall be granted for any use, expressly or by implica­
tion, prohibited in the zoning district involved.
B. No variance (...)
C. No variance shall be granted to permit the
construction of any structure or building within 50 feet
of the erosion control line as established bv the State
of Florida.
D. No variance shall be applied for, or granted,
that will purport to modify any definition.
E. No variance (...)
F. No variance shall be applied for, or granted, to
permit relief from any of the following provisions ap­
plicable to the zoning district in which the property is
located; (...) (Ord. No. 07-04, § 2(Exh. A), 3-27-07;
Ord. No. 17-11, § 2,10-10-17)
45. City of Holmes Beach Code of Ordinances.
Part III Land Development Code Art VI. § 66E(3) (f)(5).
R-4, Medium density residential district. Develop­
ment standards. Minimum yard requirements. Water­
front: 20 feet regardless of whether the waterfront is
front, side or rear; 50 feet from the erosion control line
at any riparian coastal location fronting on the Gulf of
Mexico.

App. 57
46. City of Holmes Beach Code of Ordinances.
Part III Land Development Code. Art. VII. Div. 2
§ 7.2 - Coastal Building and Development Activities
Contiguous to the Gulf of Mexico
A. Setback from the erosion control line. Any­
thing to the contrary contained in this ordinance
notwithstanding, no person, firm, partnership, corpo­
ration or public agency shall construct any structure
or building, including any dwelling, hotel, motel, apart­
ment building or other multifamily dwelling, nor con­
struct any structures or facilities appurtenant to
existing structures or buildings, including patios, gar­
ages, sheds, swimming pools or spas within 50 feet
from the erosion control line as established by the
State of Florida.
1. Variances. The board of adjustment19 shall
have no authority to grant any variance from the pro­
visions of this paragraph that would permit any exca­
vation or construction as hereinabove specified within
50 feet of the erosion control line as established by the
State of Florida.
2. Exemptions. Seawalls, groins, revetments,
dune walkovers and similar structures, the sole pur­
pose of which is the protection, establishment, mainte­
nance or nourishment of beach areas, or for the sole
purpose of protection of existing buildings or struc­
tures from the waters of the Gulf of Mexico, shall be
19 This body has been changed to “the development special
magistrate”

App. 58
exempt from the provisions of this section if the pro­
posed work is first approved by the building official.
B. Construction seaward of the coastal construc­
tion control line. Construction seaward of the coastal
construction control line shall be subject to all laws
and regulations of the State of Florida, and the City of
Holmes Beach Code of Ordinances unless contrary to
state law. (Ord. No. 07-04, § 2(Exh. A), 3-27-07; Ord. No.
16-16, § 3, 7-26-16)
47. City of Holmes Beach Code of Ordinances.
Part I Charter Art. Ill $ 3.11 - Initiative and refer­
endum.20
(1)

[Power.]

(a) Initiative. The qualified voters of the city
shall have power to propose ordinances to the commis­
sion and, if the commission fails to adopt an ordinance
so proposed without any change in substance, to adopt
or reject it at a city election, provided that such power
shall not extend to the budget or capital program or
any ordinance relating to appropriation of money, levy
of taxes or salaries of city officers or employees.
(b) Referendum. . . .
(2) Commencement of proceedings. Any five
qualified voters may commence initiative or referen­
dum proceedings by filing with the city clerk or other
official designated by the commission an affidavit
20 Citation is per May 27, 2011. This provision was changed
on Dec 2014 to prohibit initiative petition for development orders.

App. 59
stating they will constitute the petitioners’ committee
and be responsible for circulating the petition and fil­
ing it in proper form, stating their names and ad­
dresses and specifying the address to which all notices
to the committee are to be sent, and setting out in full
the proposed initiative ordinance or citing the ordi­
nance sought to be reconsidered. (Ord. No. 91-10, § 1,
12-17-91/3-10-92; Ord. No. 92-3, § 1, 4-7-92; Ord. No.
97-04, § 1(D), 1-7-97)
48. City of Holmes Beach Code of Ordinances.
Chapter 2 Administration. Art V Code Enforce­
ment21
Sec. 2-116. - Applicability. The city hereby adopts
an alternate and supplemental code enforcement sys­
tem . . . through utilization of a city code enforcement
... to hold hearings, make findings of fact, render con­
clusions of law, issue orders and assess fines against
violators of the city’s codes and ordinances. (Ord. No.
97-14B, § 1,10-7-97)
Sec. 2-122. - Administrative fines, costs of repairs
and liens, [(a)] If the code inspector finds that an order
21 This section was effective in July 2013 when the treehouse
matter arised. This has been changed since 2015. Pursuant to
§ 163.03(2), Florida Statutes, the city hereby adopts an alternate
code enforcement system ... of all of the codes and ordinances of
the city, including the Florida Standard Building Code and any
technical codes which the city administers, through utilization of
a special magistrate . . . The special magistrate shall have the
same status as an enforcement board as set forth in Chapter 162,
Florida Statutes.
(Ord. No. 97-14B, § 1, 10-7-97; Ord. No. 15-05, § 4, 4-14-15)

App. 60
previously entered by the said CEB has not been com­
plied with by the time set forth in said order or, upon
finding that a repeat violation has been committed, the
CEB shall conduct a hearing to determine whether it
should issue an order to the violator to pay a fine in an
amount pursuant to this article for each day the viola­
tion continues past the date set for compliance or, in
the case of a repeat violation, for each day the repeat
violation continues beginning with the date the repeat
violation is found to have occurred by the code inspec­
tor. The violator shall be given notice of the hearing in
accordance with section 2-125, below, informing the vi­
olator that the subject matter of the hearing will be
whether the violation remains as found by the code in­
spector and whether a fine should be imposed pursu­
ant to this ection. In addition, if the violation is a
violation described in F.S., § 162.06(4), or section 2119(d) Code of Ordinances, the CEB shall notify the
mayor and city commission, which may authorize all
reasonable repairs which are required to bring the
property into compliance and charge the violator with
the reasonable cost of the repairs, along with the fine
imposed hereunder. If, after due notice and hearing,
the CEB finds a violation to be irreparable or irreversi­
ble in nature, it may order the violator to pay a fine as
specified below.(b)(l)Any fine imposed by the CEB
shall not exceed $250.00 per day for a first violation
and shall not exceed $500.00 per day for a repeat vio­
lation and, in addition, may include all costs of repairs
pursuant to this article. However, if the CEB finds
the violation to be irreparable or irreversible in nature,
it may impose a fine not to exceed $5,000.00 per

App. 61
violation.(2)In determining the amount of the fine, if
any, the CEB shall consider the following factors:a.The
gravity of the violation;b.Any actions taken by the vio­
lator to correct the violation; and,c.Any previous viola­
tions committed by the violator. (3)The CEB may, upon
application of the violator, reduce a fine it has previ­
ously imposed.(c)A certified copy of an OIF shall be rec­
orded in the public records of Manatee County and
thereafter shall constitute a lien against the real prop­
erty on which the violation exists and upon any other
real or personal property owned by the violator. Such
lien shall be superior to all other liens, except a lien for
taxes. Upon petition to the circuit court by the city,
such order may be enforced in the same manner as a
court judgment by the sheriffs of this state, including
levy against the personal property, but such order shall
not be deemed to be a court judgment except for en­
forcement purposes. A fine imposed pursuant to this
article shall continue to accrue until the violator comes
into compliance or until judgment is rendered in a suit
to foreclose on a lien filed pursuant to this article,
whichever occurs first. A lien arising from a fine im­
posed pursuant to this article runs in favor of the city
through the city commission and the city commission
may authorize the mayor to execute a satisfaction or
release of lien entered pursuant to this ordinance on
behalf of the city and city commission. After three
months from the filing of any such lien which remains
unpaid, the CEB, with the approval of the city commis­
sion, may authorize the city through the city attorney
to foreclose on the lien. No lien created pursuant to the
provisions of this article may be recorded against or

App. 62
foreclosed on real property which is a homestead under
section 4. article X of the Florida Constitution. (Ord.
No. 97-14B, § 7,10-7-97; Ord. No. 04-23, § III, 10-12-04;
Ord. No. 10-02, § 2, 5-11-10)
Sec. 2-124. - Appeals. An aggrieved party may ap­
peal an FAO of the CEB to the circuit court in and for
Manatee County. Such an appeal shall not be a hearing
de novo, but shall be limited to the appellate review of
the record created before the CEB. An appeal shall be
filed within 30 days of the execution of the FAO to be
appealed. An aggrieved party may appeal an order im­
posing a fine to the circuit court in and for Manatee
County. Such an appeal shall not be a hearing de novo
but shall be limited to the appellate review of the rec­
ord created before the CEB. An appeal shall be filed
within 30 days of the execution of the order imposing
a fine. (Ord. No. 97-14B, § 9, 10-7-97; Ord. No. 04-23,
§ IV, 10-12-04)

APPENDIX G - “Shotgun Pleadings” Statistics
Summary Data for Shotgun Pleading Cases from 2010 to October 31, 2020
Source: Casetext
Note: Published (P), Unpublished (U), No. of Cases include supplemental pleading and amendments
Unique No. of Cases require further research____________________________________________
Civil Rights
Cases by Counsels and
Pro Se Only
by Counsels +
Pro Se
Pro Se
% of
%of
P
P
U Total %of
U Total
Total
Total
Total
Total
US Supreme Court
1st Circuit
- Court of Appeals
- District & Bankrupty Courts
2nd Circuit
- Court of Appeals
- District & Bankrupty Courts
3rd Circuit
- Court of Appeals
- District & Bankrupty Courts

1
8

1 0.8%
8 0.4%

1

1

0.0%
0.1%

0.0%
3i 0.3%

21

0.0%
21 1.0%

8

8

0.0%
1.0%

0.0%
9 0.9%

1
24

1.3%
3.1%

1 1.4%
33 3.3%

15

0.0%
2.0%

0.0%
27 2.7%

9

0.0%
1.2%

1 1.4%
42 4.2%

8

0.0%
1.0%

1 1.4%
12 1.2%

8

0.0%
1.0%

0.0%
14 1.4%

6!

0.0%
0.8%

0.0%
12 1.2%

60

0.0%
7.8%

0.0%
83 8.4%

1
14

1.3%
1.8%

2 2.7%
16 1.6%

45

1
15

1 0.8%
60 2.8%

4th Circuit
- Court of Appeals
- District & Bankrupty Courts

45

0.0%
45 2.1%

5th Circuit
- Court of Appeals
- District & Bankrupty Courts

1
67

1 0.8%
67 3.1%

6th Circuit
- Court of Appeals
- District & Bankrupty Courts

128

1 0.8%
29 1.3%

7th Circuit
- Court of Appeals
- District & Bankrupty Courts

1

22

0.0%
22 1.0%

8th Circuit
- Court of Appeals
- District & Bankrupty Courts

34

0.0%
34 1.6%

9th Circuit
- Court of Appeals
- District & Bankrupty Courts

1
142

1 0.8%
142 6.5%

10th Circuit
- Court of Appeals

- District & Bankrupty Courts

1
35

1

2 1.6%
35 1.6%

18

1
6

15

9

8-

8

6

60
1
14

>
C5
CO

Summary Data for Shotgun Pleading Cases from 2010 to October 31, 2020
Source: Casetext
Note: Published (P), Unpublished (U), No. of Cases include supplemental pleading and amendments.
Unique No. of Cases require further research_____________________________________________
Civil Rights
Cases by Counsels and
Pro Se Only
by Counsels +
Pro Se
Pro Se
% of
%of
%>of
p
U Total
P
U Total
Total
Total
Total
Total
11th Circuit
\- Court of Appeals
• Middle District Alabama
• Northern District Alabama
■ Southern District Alabama
^Middle District Florida
■ Northern District Florida
[ ■ Southern District Florida^
• Middle District Georgia
■ Northern District Georgia
■ Southern District Georgia
■ Bankruptcy Court
[District & Bankrupty Courts

24

122 94.6%

3

73
151
52

73 3.4%
151 6.9%
52 2.4%

15
22
21

824

824 37.9%
32] 1,5%
315 14.5%
37j 1.7%
125 5.7%
79:[ 3.6%

32

315
37
125
79
22

98

74

293
_____
19 - 1

22' 1.0%

96
17
72
46
14

1,710

1,710 78.7%

615

DC Circuit
- Court of Appeals
- District & Bankrupty Courts

1

0.0%>
1 0.0%>

1

All Circuits
- Court of Appeals
- District & Bankrupty Courts

29
2,158

100 129 100%>
16 2,174 100%>

3
763

77 97,5%
15] 2.6%
22! 2.9 %
2li 2.7*%
293 38.1%
19| 2.5%
96 12.5%

17
72
46
14

2.2%
9.4%
6.0%
1.8%

615 80.0%

69 93.2%
53| 5.4%
105 10.6%
310i 3.1%
280 28.3%
2l! 2.1%
108 10.9%
22' 2.2%
69 7.0%
48 4.9%

0.0%
737 74.5%
0.0%>

1
76
6

0.1%

1 0.1%>

79 100%>
769; 100%>

74 100%>
989| 100%

xs>
05

